HHS/OIG-Audit--"Review of the Food and Drug Administration's Cost Increases for the Arkansas Regional Laboratory, (A-15-98-50002)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Food and Drug Administration's Cost Increases for the
Arkansas Regional Laboratory," (A-15-98-50002)
September 1, 1999
Complete Text of Report is available in PDF format
(1.42 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of cost increases related
to the Food and Drug Administration's (FDA) construction of the Arkansas Regional
Laboratory (ARL). The current ARL estimate is $37.9 million, which is $10.4
million, or 38 percent, higher than the original estimate of $27.5 million.
The review was requested by the Subcommittee on Agriculture, Rural Development,
FDA and Related Agencies, House Committee on Appropriations.
We determined that ARL project's cost exceeded the budget estimate by $10.4
million as a result of the following: (1) $3.4 million in costs not included
in the estimate FDA used as a basis for the budget request, (2) $2.1 million
due to the architecture and engineering (A&E) firm revising its estimate
upward in October of 1996, and (3) $4.9 million in additional costs attributable
to a combination of factors including: inflation, the A&E firm's unfamiliarity
with the Arkansas area, the effects of a "building boom" in Arkansas,
the A&E firm's cursory assessment of market conditions, and the inexact
nature of construction estimates.
We also identified several management control weaknesses in FDA's oversight
of this project, which may have contributed to the agency's underestimating
ARL's project costs. Specifically, FDA did not: establish centralized control
over the fiscal management of the project at the start of the project; maintain
a sound project tracking system, or obtain a second estimate. Furthermore, the
estimate obtained by FDA only included the cost of the construction contract,
not total projected costs, which may also include items such as construction
quality management fees, architect and engineering fees, telecommunications,
and construction contingency. We also noted that FDA does not have adequate
written policies for budgeting construction projects.
To ensure that the ARL and future FDA construction projects are implemented
with anticipated cost ranges, we recommended that the FDA: (1) establish clear
lines of responsibility for future construction projects by assigning responsibility
for planning, budget development, and execution of the project to one high-level
official within the Office of Management and Systems, (2) implement a system
for tracking estimated project costs throughout the budget development stage,
(3) institute a policy to closely review budgets and estimates to ensure completeness
and accuracy, and (4) institute general policies regarding developing a construction
project budget.